HHS/OIG, Audit -"Review of PacifiCare of Oklahoma's Modifications to Its 2001 Adjusted Community Rate Proposal
Under the Benefits Improvement Protection
Act of 2000,"(A-06-02-00060)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of PacifiCare of Oklahoma's Modifications to Its 2001 Adjusted Community Rate Proposal Under the Benefits
Improvement Protection Act of 2000," (A-06-02-00060)
June 17, 2004
Complete
Text of Report is available in PDF format (358 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Under Part C (Medicare+Choice) of the Medicare Program, Medicare+Choice organizations
(MCOs) are responsible for providing all Medicare-covered services, except hospice care, in return for a predetermined
capitated payment.  MCOs with plans for which payment rates increased were required to submit a revised proposal to
show how they would use the increase during 2001.  MCOs were required to use the additional amounts to reduce beneficiary
premiums or cost-sharing, enhance benefits, contribute to a stabilization fund for benefits in future years, or stabilize
or enhance beneficiary access to providers.
PacifiCare submitted a revised proposal that reflected an increase in Medicare
capitation payments of about $16.4 million for 2001.  We found that about $5.2 million of the $16.4 million increase
in PacifiCare's revised proposal was not used in a required manner or was not supported.  Approximately $4.2 million
was not associated with stabilizing or enhancing access to providers because PacifiCare did not renegotiate its provider
contracts to increase provider payment rates as indicated in its revised proposal.  A $1 million medical cost contingency
did not comply with requirements and was unsupported.  We recommended that PacifiCare refund $5,204,042 to the Centers
for Medicare and Medicaid Services or, as an alternative, deposit this amount in a benefit stabilization fund for use in
future years.  We also recommended that PacifiCare ensure that estimated costs in future proposals are properly supported.